UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-1921

DERRICK MICHAEL ALLEN, SR.,
Plaintiff - Appellant,
v.
SUNTRUST BANK; TRUIST BANK; HEATH CAMPBELL; BETH BARHAM,
Defendants - Appellees.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Thomas D. Schroeder, Chief District Judge. (l:20-cv-00293-TDS-LPA)
Submitted: December 21, 2020
Before MOTZ, DIAZ, and HARRIS, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Derrick Michael Allen, Sr., Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: January 7, 2021

PER CURIAM:
Derrick Michael Allen, Sr., appeals the district court’s order accepting the
recommendation of the magistrate judge and dismissing Allen’s 42 U.S.C. § 1983
complaint. We have reviewed the record and find no reversible error. Accordingly, we
affirm for the reasons stated by the district court. Allen v. SunTrust Bank, No. l:20-cv00293-TDS-LPA (M.D.N.C. Aug. 21,2020). We deny Allen’s motions to appoint counsel
and for a transcript at government expense. We dispense with oral argument because the
facts and legal contentions are adequately presented in the materials before this court and
argument would not aid the decisional process.
AFFIRMED

2

FILED: January 7, 2021
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-1921
(1:20-cv-00293-TDS-LPA)

DERRICK MICHAEL ALLEN, SR.
Plaintiff - Appellant
v.
SUNTRUST BANK; TRUIST BANK; HEATH CAMPBELL; BETH BARHAM
Defendants - Appellees

JUDGMENT
In accordance with the decision of this court, the judgment of the district
court is affirmed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
DERRICK MICHAEL ALLEN, SR.

)

Plaintiff,
v.

1:20CV293

)

SUNTRUST BANK, et al.,

)

Defendants.
JUDGMENT
For the reasons set forth in the Order filed contemporaneously
with this Judgment,
IT IS THEREFORE ORDERED AND ADJUDGED that this action is
dismissed for want of subject matter jurisdiction.

Thomas D. Schroeder
/ s/
United States District' Judge

August 21, 2020

Case l:20-cv-00293-TDS-LPA Document 11 Filed 08/21/20 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
DERRICK MICHAEL ALLEN, SR.
Plaintiff,
v.

1:20CV293
)

SUNTRUST BANK, et al.,
)
)

Defendants.

ORDER
The Recommendation of the United States Magistrate Judge was
filed with the court in accordance with 28 U.S.C. § 636(b) and, on
April 1,

2020,

was served on the parties in this action.

Order and Recommendation dated Apr.
objected to the Recommendation.
The

court

has

1,

2020; Doc.

6.)

(Text

Plaintiff

(Doc. 8. )

appropriately

reviewed

the portions

of

the

Magistrate Judge's report to which objections were made and has
made a de novo determination in accord with the Magistrate Judge's
report.

The

court

therefore

adopts

the

Magistrate

Judge's

Recommendation.
IT

IS THEREFORE ORDERED that this action is dismissed for

want of subject matter jurisdiction.
Mr. Allen has filed multiple cases raising frivolous claims
in this court.

He is now strongly cautioned not to file claims

lacking a legal and/or factual basis in violation of Federal Rule
of Civil Procedure 11.

It is not enough that he may think he has

Case l:20-cv-00293-TDS-LPA Document 10 Filed 08/21/20 Page 1 of 2

been wronged; he must have a good faith basis in fact and in law
to support his claims.

While his pro se status entitles him to

some consideration as a non-lawyer,

it' does not excuse him from

his obligation to file only claims that have a good faith basis.
Continued filing of frivolous cases diverts the court's attention
from cases that actually raise cognizable claims and thus slows
the court's ability to administer justice.
a pre-filing injunction,

Sanctions, including

are options available to the court to

address continued frivolous filings.

/s/
Thomas D. Schroeder
United States District Judge
August 21, 2020

2

Case l:20-cv-00293-TDS-LPA Document 10 Filed 08/21/20 Page 2 of 2

